TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2007 Statutory Review of
                    Compliance With Legal Guidelines When
                                Issuing Levies



                                           April 20, 2007

                              Reference Number: 2007-30-070




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 April 20, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2007 Statutory Review of Compliance
                               With Legal Guidelines When Issuing Levies (Audit # 200630033)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
 Opportunity for Hearing Before Levy.1 This audit is statutorily required each fiscal year.

 Impact on the Taxpayer
 The IRS Restructuring and Reform Act of 19982 requires the IRS to notify taxpayers at least
 30 days before initiating any levy action, to give taxpayers an opportunity to formally appeal the
 proposed levy. We determined the IRS is complying with the legal guidelines and protecting
 taxpayer rights.

 Synopsis
 This is the ninth annual report the Treasury Inspector General for Tax Administration has issued
 in compliance with the IRS Restructuring and Reform Act of 1998 to determine whether the IRS
 is complying with legal guidelines over the issuance of levies. Prior Treasury Inspector General


 1
   26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
 Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
 of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
 2
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                     Fiscal Year 2007 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



for Tax Administration reports have recognized that the IRS has implemented tighter controls
related to systemically generated levies. This was due primarily to the development of systemic
controls in both the Automated Collection System3 and the Integrated Collection System4 to
prevent levies from being generated unless there were at least 30 days between the date
taxpayers received notice of their appeal rights and the date of the proposed levies. Our testing
of these controls indicated that they continue to function effectively. Specifically, our review of
30 Automated Collection System and 30 Integrated Collection System systemic levies issued
between July 1, 2005, and June 30, 2006, showed the IRS properly informed taxpayers of their
appeal rights at least 30 days prior to issuing levies.
Prior to Fiscal Year 2005, we had reported5 that revenue officers did not always properly notify
taxpayers of their appeal rights when issuing manual levies to seize taxpayer assets. Since
Fiscal Year 2005, we have reported revenue officers properly notified taxpayers of their appeal
rights when issuing manual levies.6 Our review this year of 30 Integrated Collection System and
30 Automated Collection System manual levies issued between July 1, 2005, and June 30, 2006,
continued to show revenue officers and Automated Collection System representatives properly
informed taxpayers of their rights at least 30 days prior to issuing the levies.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by this report. Please
contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at (202) 622-5894.




3
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
4
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
5
  Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004) and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
6
  Taxpayer Rights Are Being Protected When Levies Are Issued (Reference Number 2005-30-072, dated June 2005)
and Fiscal Year 2006 Statutory Review of Compliance With Legal Guidelines When Issuing Levies (Reference
Number 2006-30-101, dated August 4, 2006).
                                                                                                                    2
                        Fiscal Year 2007 Statutory Review of Compliance With Legal
                                      Guidelines When Issuing Levies




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Controls Implemented to Protect Taxpayer Rights During the
          Issuance of Systemic Levies Are Operating Effectively ..............................Page 3
          Employees Properly Notified Taxpayers of Their Appeal Rights
          Prior to Issuing Manual Levies .....................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Example of Levy (Form 668-B) ..........................................Page 10
         Fiscal Year 2007 Statutory Review of Compliance With Legal
                       Guidelines When Issuing Levies




                       Abbreviations

ACS              Automated Collection System
ICS              Integrated Collection System
IRS              Internal Revenue Service
U.S.C.           United States Code
                    Fiscal Year 2007 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies




                                          Background

When taxpayers do not pay delinquent taxes, the Internal
Revenue Service (IRS) has the authority to work directly            The Treasury Inspector General
                                                                       for Tax Administration is
with financial institutions and other third parties to seize          required to annually verify
taxpayers’ assets. This action is commonly referred to               whether the IRS is complying
as a “levy.” The IRS Restructuring and Reform Act                   with the IRS Restructuring and
of 19981 requires the IRS to notify taxpayers at least              Reform Act of 1998 requirement
30 days before initiating a levy action, to give taxpayers            to notify taxpayers at least
                                                                    30 days before initiating a levy
an opportunity to formally appeal the proposed levy.                             action.
The IRS Restructuring and Reform Act of 1998 also
requires the Treasury Inspector General for Tax
Administration to annually verify whether the IRS is complying with the provisions. This is the
ninth year in which we have evaluated the controls over levies.
Two operations within the IRS issue levies to collect delinquent taxes:
    •   The Automated Collection System (ACS), through which customer service
        representatives (representatives) contact delinquent taxpayers by telephone to collect
        unpaid taxes and secure tax returns.
    •   The Collection Field function, where revenue officers contact delinquent taxpayers in
        person as the final step in the collection process. Field contact becomes necessary when
        the ACS function does not resolve the tax matter. Delinquent cases assigned to revenue
        officers in the field offices are controlled and monitored with the automated Integrated
        Collection System (ICS).
Both operations issue two types of levies: systemically generated levies and manual levies.
Previous Treasury Inspector General for Tax Administration audit reports2 have recognized that
the IRS has significantly improved controls over the issuance of systemically generated levies.
This was due primarily to the development of systemic controls in both the ACS and ICS to


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The Internal Revenue Service Does Not Have Controls Over Manual Levies to Protect the Rights of Taxpayers
(Reference Number 2003-40-129, dated June 2003); The Internal Revenue Service Has Improved Controls Over the
Issuance of Levies, But More Should Be Done (Reference Number 2002-40-176, dated September 2002); The
Internal Revenue Service Complied With Levy Requirements (Reference Number 2001-10-113, dated July 2001);
and The Internal Revenue Service Has Significantly Improved Its Compliance With Levy Requirements (Reference
Number 2000-10-150, dated September 2000).
                                                                                                     Page 1
                    Fiscal Year 2007 Statutory Review of Compliance With Legal
                                  Guidelines When Issuing Levies



prevent levies from being generated unless there were at least 30 days between the date
taxpayers received notice of their appeal rights and the date of the proposed levies.
Treasury Inspector General for Tax Administration audit reports issued prior to Fiscal Year 2005
identified that additional controls were needed over manual levies issued by revenue officers.3 In
the April 2004 report, we recommended the IRS reconsider requiring managers to review manual
levies prepared by a revenue officer. The IRS declined to implement this recommendation but
did issue an ICS Alert on March 5, 2004, reminding employees to ensure taxpayer rights are
protected whenever a manual levy is issued. Both our June 2005 and August 2006 reports4
showed revenue officers properly notified taxpayers of their right to a hearing when issuing
manual levies.
This review was conducted at the Small Business/Self-Employed Division Headquarters in the
Collection office in New Carrollton, Maryland, during the period September 2006 through
February 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
  Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004) and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
4
  Taxpayer Rights Are Being Protected When Levies Are Issued (Reference Number 2005-30-072, dated June 2005)
and Fiscal Year 2006 Statutory Review of Compliance With Legal Guidelines When Issuing Levies (Reference
Number 2006-30-101, dated August 4, 2006).
                                                                                                     Page 2
                  Fiscal Year 2007 Statutory Review of Compliance With Legal
                                Guidelines When Issuing Levies




                                  Results of Review

Controls Implemented to Protect Taxpayer Rights During the Issuance
of Systemic Levies Are Operating Effectively
Our review of systemically generated levies showed that
taxpayers’ rights were protected. The IRS gave taxpayers
                                                                       Taxpayers were given notice
notice of their appeal rights at least 30 days prior to the issuance    of their appeal rights when
of the levies.                                                         systemic levies were issued.

ACS controls are effective
The first step in the collection process involves mailing taxpayers a series of notices asking for
payment of delinquent taxes. If taxpayers do not comply, the majority of the accounts are
forwarded to an ACS Call Center where representatives contact taxpayers by telephone to
resolve their accounts. If accounts cannot be resolved, representatives have the authority to issue
levies. See Appendix IV for an example of a Levy (Form 668-B).
Virtually all levies issued by representatives are generated through the ACS, which contains a
control developed to comply with the IRS Restructuring and Reform Act of 1998 that compares
the date the taxpayer was notified of the pending levy with the date requested for the actual
issuance of the levy. If there are fewer than 30 days between the dates, the ACS will not
generate a levy. This control is designed to ensure taxpayers have been notified at least 30 days
prior to the levies and have been informed of their appeal rights for any systemically generated
levies.
We tested the effectiveness of this control by reviewing a random sample of 30 levies issued
through the ACS between July 1, 2005, and June 30, 2006. We compared the date of the final
notification letter to the date of the issuance of the levy. All 30 taxpayers were timely notified of
their appeal rights. Therefore, the systemic controls in the ACS Call Centers effectively
protected taxpayers’ appeal rights.
IRS guidelines state that, if a notice of intent to levy is more than 180 days old, it is legally
sufficient to support consequent collection action by levy. However, the IRS has
administratively determined that the taxpayer will get a new warning of enforcement action
before a notice of levy is issued. In 19 of the 30 cases, the notification letter was issued more
than 180 days prior to the levy. In three of these cases, there was no reminder of potential
enforcement actions to the taxpayers. The notification letters of appeal rights had been issued
193, 415, and 1,455 days prior to the levies for these taxpayers.

                                                                                              Page 3
                  Fiscal Year 2007 Statutory Review of Compliance With Legal
                                Guidelines When Issuing Levies




Although we did not select a statistically valid sample, for the 1-year period, the IRS issued ACS
systemic levies to approximately 686,000 taxpayers. Therefore, there is the potential that a large
number of taxpayers may have had the same situation occur. Subsequent to our audit period, the
IRS implemented programming changes to the ACS that we believe should address this issue so
it does not happen in the future. The programming changes identify cases in which the taxpayers
have not been contacted within 180 days. For these cases, the IRS would send another letter or
contact the taxpayers warning them of potential enforcement action prior to issuing the levies.
We plan to test this control in future audits.

ICS controls are effective
Many times, notices and telephone calls to taxpayers do not successfully resolve delinquent
accounts, and cases have to be assigned to revenue officers in Collection Field function offices
for face-to-face contact with taxpayers. Cases assigned to Collection Field function revenue
officers are controlled on the ICS. Revenue officers use the ICS to record collection activity on
delinquent cases and generate enforcement actions such as levies.
The IRS installed a control in the ICS similar to the control in the ACS that prevents levies from
being issued unless taxpayers have received 30 days’ notice and have been informed of their
appeal rights. If fewer than 30 days have elapsed since the final notice date, the System will not
generate a levy.
We tested the effectiveness of this control by reviewing a random sample of 30 systemically
generated levies issued through the ICS between July 1, 2005, and June 30, 2006. We compared
the date of the final notification letter to the date of the issuance of the levy. All 30 taxpayers
had received notification of their appeal rights at least 30 days prior to the levies. Therefore, the
systemic controls over levies issued by revenue officers in Collection Field function offices
effectively protected taxpayers’ appeal rights.

Employees Properly Notified Taxpayers of Their Appeal Rights Prior
to Issuing Manual Levies
The second type of levy that both representatives and revenue officers can issue is the manual
levy. It is issued outside the ACS and ICS automated processes and may not be subject to
systemic controls.
Because manual levies are issued outside the ACS and ICS automated processes, an automated
audit trail for these actions is not produced. Therefore, it is impossible to reliably determine the
exact number of manual levies issued by either representatives or revenue officers during our
review period.
Although ACS function representatives primarily issue levies systemically, they may also issue
manual levies under certain circumstances, such as levies on Individual Retirement

                                                                                              Page 4
                     Fiscal Year 2007 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



Arrangements and in jeopardy situations.5 Manual levies require the same advance notification
to the taxpayer as systemic levies, except in cases involving jeopardy situations. IRS procedures
require that manual levies issued by representatives be reviewed and approved by a manager
prior to the levies being issued. We consider this managerial review to be an effective control.
We analyzed the case narrative files for ACS function cases to identify any manual levies issued
between July 1, 2005, and June 30, 2006. Because there is no automated audit trail produced for
manual levies, we analyzed case narrative comments for
any references to a manual levy. Our review of 30 manual Our review of 30 ACS and 30 ICS
levies issued by representatives showed the IRS                 manual levies determined the
adequately protected taxpayers’ appeal rights.                 IRS protected taxpayers’ appeal
                                                                                rights in these cases.
Revenue officers similarly issue levies systemically
through the ICS in most cases. They are also authorized
to issue a manual levy on any case as needed. While
managerial approval is mandatory for manual levies issued by ACS function representatives, no
review or approval is required when revenue officers issue manual levies. We believe there is a
high risk associated with manual levies because no review is required.
We analyzed the ICS case inventory assigned to revenue officers to identify any manual levies
issued between July 1, 2005, and June 30, 2006. Because no automated audit trail is produced
for manual levies, we analyzed case history comments for any references to a manual levy.
Using this methodology, we identified cases in which a manual levy was issued to seize
taxpayers’ assets and reviewed a sample of 30 cases. In all 30 cases, taxpayers received proper
notification of their rights.




5
 A “jeopardy situation” occurs when the IRS is concerned the taxpayer may attempt to hide or dispose of assets to
prevent enforced collection actions.
                                                                                                           Page 5
                     Fiscal Year 2007 Statutory Review of Compliance With Legal
                                   Guidelines When Issuing Levies



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has complied with
26 United States Code (U.S.C.) Section (§) 6330, Notice and Opportunity for Hearing Before
Levy.1 To accomplish our objective, we:
I.       Determined whether the IRS maintained sufficient automated controls and procedures to
         ensure taxpayers had been advised of their right to a hearing at least 30 days prior to any
         levy action.
         A. Determined whether automated procedures to prevent levies from being issued in
            fewer than 30 days from the final notice date were still in place for the ACS2 Call
            Centers and the ICS3 and documented the current procedures.
         B. Selected a random sample of 30 ICS levies from the population of approximately
            380,000 levies involving 80,000 taxpayers issued between July 1, 2005, and
            June 30, 2006, from an extract of the ICS database of open cases as of
            September 2006. We analyzed Master File4 transcripts and the record histories for the
            selected sample cases and verified whether taxpayers had been advised of their right
            to a hearing at least 30 days prior to any levy action. We did not use statistical
            sampling because, based on prior years’ testing, we did not anticipate finding any
            errors; consequently, we would not need to project our results.
         C. Selected a random sample of 30 ACS levies from the population of approximately
            1.8 million levies involving 686,000 taxpayers issued between July 1, 2005, and
            June 30, 2006, from an extract of the ACS database of open cases as of
            September 2006. We analyzed Master File transcripts and the record histories for the
            sample cases selected and verified whether taxpayers had been advised of their right
            to a hearing at least 30 days prior to any levy action. We did not use statistical



1
  26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                             Page 6
                Fiscal Year 2007 Statutory Review of Compliance With Legal
                              Guidelines When Issuing Levies



         sampling because, based on prior years’ testing, we did not anticipate finding any
         errors; consequently, we would not need to project our results.
      D. Validated data from the ACS and ICS by relying on Treasury Inspector General for
         Tax Administration Data Center Warehouse site procedures that ensure data received
         from the IRS are valid. Various procedures are performed to ensure the Warehouse
         receives all the records in the ACS, ICS, and IRS databases. In addition, we scanned
         the data for reasonableness and are satisfied that the data are sufficient, complete, and
         relevant to the review. All the levies identified are in the appropriate period, and the
         data appear logical.
II.   Determined whether manual levies issued by revenue officers and ACS function
      personnel complied with legal guidelines in 26 U.S.C. § 6330.
      A. Identified any references to manual levies issued between July 1, 2005, and
         June 30, 2006, by querying the history narrative text field of the ICS open case
         inventories and the narrative field of the Desktop Integration files for ACS function
         cases. We identified and reviewed a judgmental sample of 30 manual levies from the
         open ICS cases and a judgmental sample of 30 manual levies from the ACS function
         cases. We used judgmental sampling because we could not identify the population of
         manual levies issued.
         1. Requested complete case history files for all cases containing references to
            manual levies identified in Step II.A.
         2. Reviewed case history documentation and identified whether a revenue officer or
            an ACS function representative had issued a manual levy.
         3. Analyzed Master File transcripts and ACS and ICS history files to determine
            whether taxpayers were provided at least 30 days’ notice prior to any levy action
            initiated by the IRS.




                                                                                           Page 7
                 Fiscal Year 2007 Statutory Review of Compliance With Legal
                               Guidelines When Issuing Levies



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Lynn Wofchuck, Audit Manager
Pillai Sittampalam, Lead Auditor
Christina Dreyer, Senior Auditor




                                                                                        Page 8
                Fiscal Year 2007 Statutory Review of Compliance With Legal
                              Guidelines When Issuing Levies



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
Fiscal Year 2007 Statutory Review of Compliance With Legal
              Guidelines When Issuing Levies



                                               Appendix IV

  Example of Levy (Form 668-B)




                                                      Page 10
